No. 20-164
IN THE

Supreme Court of the United States
TRUSTEES OF THE NEW LIFE IN CHRIST CHURCH,
Petitioner,
v.
CITY OF FREDERICKSBURG, VIRGINIA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE CIRCUIT COURT OF THE CITY OF
FREDERICKSBURG, VIRGINIA

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Matthew T. Martens, a member of
the bar of this Court, certify that the accompanying Brief for Amicus Curiae The
Coalition for Jewish Values in Support of Petitioner contains 2,720 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
Executed on September 3, 2021.

MATTHEW T. MARTENS
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
matthew.martens@wilmerhale.com

